BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of Great Lakes
Justice Center as Amicus Curiae in Support of
Petitioners in 19-123, Sharonell Fulton, et al. v. City of
Philadelphia, Pennsylvania, et al., were sent via Two
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Two Day Service and e-mail to the
following parties listed below, this 3rd day of June,
2020:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 507 -0834
rienzi@law.edu
mrienzi@becketlaw.org

Counsel for Petitioners
Leslie Cooper
American Civil Liberties Union
125 Broad Street
New York, NY 10004
(212) 519-7815
lcooper@aclu.org

Counsel for Intervenor Support Center for Child
Advocates and Philadelphia Family Pride

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

I www.beckergallagher.com

8790 Governor's Hill Drive

I Suite 102

Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com
Counsel for Respondents City of Philadelphia,
Department of Human Services for the City of
Philadelphia, Philadelphia Commission on Human
Relations

William Wagner
Counsel of Record
Erin Elizabeth Mersino
John S. Kane
Great Lakes Justice Center
5600 W. Mount Hope Hwy
Lansing, MI 4891 7
(517) 322-3207
AttyContact@GreatLakesJC.org
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 3, 2020.

10~~\~~ l))~

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

cJ6.£

rkrh:

Notary Public
[seal]

? , Ob dCl
l'.l - ' ~

